Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 PRESSURE REDUCING SUPPORT 

          SURFACES 





                   JUNE GIBBS BROWN
                   Inspector General

                        JUNE 1997
                      OEI-02-95-00370
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law
95-452, is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This statutory
mission is carried out through a nationwide program of audits, investigations, inspections,
sanctions, and fraud alerts. The Inspector General informs the Secretary of program and
management problems and recommends legislative, regulatory, and operational approaches
to correct them.


                       Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office
of Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the
public. The inspection reports provide findings and recommendations on the efficiency,
vulnerability, and effectiveness of departmental programs.

The OEI’s New York Regional Office prepared this report under the direction of Alan S.
Meyer, Regional Inspector General. Principal OEI staff included:

Region                                             Headauarters

Demetra Arapakos, Project Leader                   Brian Ritchie 

Jennifer Caves                                     Barbara Tedesco 

Lucille Cop                                        Stuart Wright 

Daniel Ginsberg 

Jane Liss, intern 

Panayiotis Beloyeannis, intern 


To obtain a copy of this report, call the New York Regional Office at (212) 264- 1998.
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  PRESSURE REDUCING SUPPORT 

           SURFACES 





               ‘.o

               2,        JUNE GIBBS BROWN
                     /   Inspector General
                EXECUTIVE                            SUMMARY

PURPOSE

To determine the extent of inappropriate Medicare payments for pressure reducing support
surfaces and to assess the effect of new 1996 Durable Medical Equipment Regional Carrier
(DMERC) medical policies and coverage guidelines.

BACKGROUND

Pressure reducing support surfaces are a kind of durable medical equipment (DME) used for
the care of pressure sores. These sores are lesions caused by unrelieved pressure resulting in
damage of underlying tissue. Support surfaces are coded under one of 16 different HCFA
Common Procedure Coding System (HCPCS) codes and categorized into three groups. A
major distinction between support surfaces is that some are powered by electricity and others
are not.

In an effort to clarify and improve existing support surface medical policies, new Durable
Medical Equipment Regional Carrier guidelines became effective January 1, 1996. These
changes had the greatest impact on alternating pressure mattresses by no longer allowing
reimbursement for these mattresses if used for preventive treatment, as they had been before
1996. The new guidelines also no longer require certificates of medical necessity (CMNs)
for support surface equipment, with the exception of air-fluidized beds.

In conducting this inspection, we used the following combination of methods: a mail survey
to a sample of Medicare beneficiaries who had claims paid for support surface equipment; a
medical record review for a subsample of these Medicare beneficiaries; an examination of
their support surface billing histories; and a review of Medicare reimbursement data for
support surface codes. In order to assess the effect of new 1996 DMERC support surface
medical policies, we selected two beneficiary samples for this inspection - the first from the
last quarter (October, November, and December) of 1995, and the second from the second
quarter (April, May, and June) of 1996.

FINDINGS

While New 1996 DMERC Guidelines Appear To Be Having A Positive Impact On
Controlling Medicare Costs For Support Surfaces, Inappropriate Payments Are Still
Noted

Medicare reimbursement for alternating pressure mattresses has been decreasing, dropping
from $183,358,943 in 1995, to $148,894,337 in 1996. In 1996, 29 percent of sample
beneficiaries used support surfaces that were medically unnecessary, fewer than the 47
percent of beneficiaries who used a medically unnecessary support surface in 1995. Finally,
12 percent of beneficiaries in 1996, down from 22 percent in 1995, report receiving upcoded
equipment or no equipment at all, or had duplicate support surface billings. Because of the


                                                 i
small sample size, we cannot demonstrate that these differences are statistically significant.
However, these trends are consistent with recent actions taken by the Health Care Financing
Administration (HCFA).

A Variety of Other Problems Continue To Adversely Affect Medicare Support Surface
Reimbursement

These problems are due to a lack of adherence to existing DMERC guidelines, and were not
impacted in any way by the establishment of new 1996 DMERC policies. They include: the
use of group 2 equipment before a trial of less expensive and complex group 1 equipment;
the continued use of support surface equipment after sores have healed completely; an
apparent lack of physician involvement in and documentation for beneficiary use of support
surfaces; and improper use of support surfaces by beneficiaries who do not plug in their
electrical equipment.

Most Beneficiaries With Appropriately Paid Claims Report Positive Experiences With
Their Support Surface Equipment

Of the beneficiaries in 1995 and 1996 who received electrical equipment which was both
medically necessary and properly used, a majority (79 percent and 89 percent respectively)
report that their pressure sores healed completely or improved because of their support
surface use.

RECOMMENDATIONS

While the new 1996 DMERC guidelines appear to be having a positive impact on controlling
Medicare costs for support surfaces, inappropriate payments are still being made and other
problems continue to adversely affect Medicare reimbursement for this equipment. We
therefore believe that additional steps can be taken to reduce the extent of inappropriate
support surface payments. In particular, we recommend that:

HCFA establish the requirement for periodic review and renewal of the medical
necessity for beneficiaries’ use of group 2 support surface equipment.

We recognize that establishing such a requirement may be cumbersome to both the DMERCs
in processing claims and to the suppliers in obtaining the necessary information. However,
we believe that this requirement should help to eliminate problems identified in this report.
These include beneficiaries’ inappropriate and improper use of support surfaces, provision of
upcoded equipment, and poor documentation of support surface use. Periodic recertifications
could be done every 3 months and completed by a healthcare practitioner.

We estimate that implementing this requirement would save as much as $12 million annually.
Actual savings could be considerably larger than this amount.




                                                ii
COMMENTS

We received comments on the draft report from HCFA and the Assistant Secretary for
Planning and Evaluation. We also solicited and received comments from 3 industry groups,
the Health Industry Manufacturers Association (HIMA), the National Association for Medical
Equipment Services (NAMES), and the Health Industry Distributors Association (HIDA).

The HCFA does not concur with our recommendation that it establish the requirement for
periodic review and renewal of the medical necessity for beneficiaries’ use of group 2
support surface equipment. It does not believe such a requirement is necessary since group 2
support surface claims must have a ZX modifier, which indicates the supplier has
documentation that medical policy requirements have been met. Furthermore, the HCFA is
concerned about the timeliness and costs associated with utilizing a certificate of medical
necessity (CMN) for group 2 equipment.

In response, we point out that our recommendation did not specifically state that a CMN be
used for periodic review and renewal of medical necessity. In fact, we deliberately did not
recommend that a CMN be used because of the same concerns of timeliness and costs.
However, we feel strongly that some other mechanism be used to review and renew medical
necessity. We do not believe the ZX modifier is sufficient to do this, since there is no
requirement for additional medical evidence to support it beyond the initial medical necessity
determination. Currently, there is no mandate for any additional, ongoing review of medical
necessity. Furthermore, the findings of our report indicate inappropriate utilization which
warrants, in our opinion, some type of corrective action.

We believe that the Statement of the Ordering Physician, which must be filled out prior to
delivery of the equipment and is kept on file with the supplier, could be used to implement
our recommendation. This would assure that the equipment continues to be medically
necessary. Such a review could also assure that the beneficiary is using the equipment
appropriately and using equipment that is properly coded.

All three industry groups support, on some level, our recommendation. The HIMA is in
“complete agreement” and states that this is a position they have held for the past several
years. The NAMES supports using the Statement of the Ordering Physician, but on a 6
month basis; HIDA agrees with the 6 month timeframe. We believe a 3 month time
requirement for review and renewal, as suggested by HIMA, is the best option, and have
changed the recommendation accordingly.

Both HCFA and ASPE raised questions about our cost savings estimate of $12 million. We
have added a further explanation as to how we derived this estimate in the report’s
methodology. The ASPE suggests we conduct a cost-benefit analysis for implementing our
recommendation. While we acknowledge that certain costs would be incurred by
implementing this recommendation, we believe that these costs are likely to be minimal,
particularly since the Statement of the Ordering Physician is already kept on file by the
supplier.



                                                ...
                                                111
The HCFA also states that it is unaware of any new support surface coding verification
process by the SADMERC. During discussions with SADMERC staff, however, they
indicated that they had improved their existing coding verification process to accommodate
changes in support surface policies and new support surface codes and now send out a sheet
with guidelines for suppliers wanting written coding verification. As HCFA notes, this
process is optional to suppliers requesting assistance.

Finally, in response to HCFA’s other technical comments, we have made additional
clarifications to the text in both the background and findings sections. The full text of all
comments are included in Appendix D.




                                                 iv
                        TABLE                        OF       CONTENTS

                                                                                                                 PAGE
EXECUTJYE SUMMARY


INTRODUCTION               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..I           . . .   1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

  � 1996    DMERC Guidelines Have Positive Impact on Controlling Medicare Costs                                     . . 7

  � Problems      Continue to Adversely Affect Medicare Reimbursement                         . . . . . . . .       . 10

  � Beneficiaries     Report Positive Experiences with Support Surfaces . . . . . . . . .                        . . 12


RECOMMENDATIONS                     . . . . .        . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   . . 13


APPENDICES 


A: Sample Selection . . . . . . .            I   .   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 
.    A-l

B: Confidence Intervals ....................................                                                        . B-l

C: Non-respondent Analyses .................................                                                        . C-l

D: Comments .........................................                                                            . D-l
                             INTRODUCTION

PURPOSE

To determine the extent of inappropriate Medicare payments for pressure reducing support
surfaces and to assess the effect of new 1996 Durable Medical Equipment Regional Carrier
(DMERC) medical policies and coverage guidelines.

BACKGROUND

Medicare Program

Medicare provides health insurance for approximately 37 million elderly and disabled 

beneficiaries under two parts. The first, Part A, is hospital insurance which covers services 

furnished by providers, such as hospitals, home health agencies, and skilled nursing 

facilities. The second, Part B, is supplementary medical insurance which covers physician 

services, outpatient hospital services, and other medical services and supplies. The Health 

Care Financing Administration (HCFA) administers the Medicare program and contracts with 

carriers and fiscal intermediaries to process, review, and pay claims for covered services. 


DME

One benefit covered under Medicare Part B is durable medical equipment (DME). Home
health agencies can also bill for DME under the Part A home health benefit if such
equipment is part of their patient’s home health plan of care. In order for DME to be
covered, it must: withstand repeated use; be used primarily and customarily to serve a
medical purpose; generally not be useful to a person in the absence of illness or injury; and
be appropriate for home use.

In October, 1993, HCFA began processing DME claims through four regional carriers called
the Durable Medical Equipment Regional Carriers (DMERCs). These four carriers cover the
entire country, using common medical policies and coverage guidelines for DME.

Support Sur$aces

Pressure reducing support surfaces are a kind of DME used for the care of decubitus ulcers
or pressure sores. These sores are lesions caused by unrelieved pressure resulting in damage
of underlying tissue. They form when patients are not able to shift their weight from one
part of their body to the other, thus resulting in pressure being applied to only one area
where the sore then develops. Individuals with limited mobility who are confined to a bed or
wheelchair for long periods of time, as well as those with impaired sensation, are susceptible
to pressure sores. Thus, patients with conditions such as multiple sclerosis or spinal cord
injuries, as well as the frail elderly, are particularly vulnerable. Pressure sores are classified
into four stages, with stage I being the mildest and stage IV the most severe.
Support surfaces are coded under one of 16 different HCFA Common Procedure Coding
System (HCPCS) codes and categorized into three groups. A major distinction between
support surfaces is that some are powered by electricity and others are not. Equipment in
group 1 are generally less expensive than equipment in groups 2 and 3.

Group 1 includes both powered and non-powered mattress overlays made of gel, air, water
or foam. Group 2 includes two air mattress overlays, one powered and the other not, both
of which were given their own codes in April 1996. It also includes a powered air flotation
bed and an alternating pressure mattress. The only support surface included in group 3 is the
air-fluidized bed, which uses the circulation of filtered air through silicone coated ceramic
beads, thus simulating the movement of fluid.

Medicare Coverage of Support Surj’aces

In an effort to clarify and improve existing support surface medical policies and coverage
requirements, new DMERC guidelines became effective January 1, 1996. These changes
had the greatest impact on alternating pressure mattresses (code EO277), by no longer
allowing reimbursement for these mattresses if used only for preventive treatment, as they
had been before 1996. The new policies also no longer require certificates of medical
necessity (CMN) for support surface equipment, with the exception of air-fluidized beds.
Additionally, the Statistical Analysis DMERC (SADMERC) improved its existing process of
support surface coding verification for suppliers with questions about which code to use for
their equipment.

For all three support surface groups, patients should have a care plan established by their
physician or home care nurse, which is documented in their medical records. This plan
generally should include, among other things, education of the patient and regular assessment
by a healthcare practitioner. Coverage for all three groups continues until the patient’s
pressure sore is healed.

In addition to the above common requirements, coverage for specific groups of support
surfaces varies as follows:

GROUP 1. A group 1 support surface is covered if the patient is completely immobile.
Otherwise, he or she must be partially immobile, or have any stage pressure sore, and
demonstrate one of the following conditions: impaired nutritional status; incontinence;
altered sensory perception; or compromised circulatory status. A physician order must be
obtained prior to delivery of the equipment and should be kept on file by the supplier.

GROUP 2. A group 2 support surface is covered if the patient has a stage II pressure sore
located on the trunk or pelvis, has been on a comprehensive pressure sore treatment program
(which has included the use of an appropriate group 1 support surface for at least one
month), and has sores which have worsened or remained the same over the past month. A
group 2 support surface is also covered if the patient has large or multiple stage III or IV
pressure sores on the trunk or pelvis, or if he or she has had a recent mycutaneous flap .or
skin graft for a pressure sore on the trunk or pelvis and has been on a group 2 or 3 support


                                              2
surface immediately prior to recent discharge from a hospital or nursing facility. A
physician order must be obtained prior to delivery and kept on file by the supplier.

GROUP 3. Air-fluidized beds, the sole group 3 support surface, are covered if seven
criteria are met. These are stage III or IV pressure sores; severely limited mobility; an
unsuccessful conservative treatment trial; a trained adult caregiver who is available to assist
the patient; physician direction of the home treatment regimen; and the consideration and
ruling out of alternative equipment. For air-fluidized beds, an order and certificate of
medical necessity (CMN) must be signed and dated by the ordering physician prior to
delivery. These beds must have their medical necessity recertified on a monthly basis.

OperationRestore Trust

The Office of Inspector General (OIG) has over the past few years issued several reports on
durable medical equipment (DME) which have documented problems with inappropriate
Medicare payments. In response to these and other concerns with Medicare fraud and abuse,
the Department of Health and Human Services designed an anti-fraud initiative called
Operation Restore Trust (ORT) to target fraud, waste and abuse related to home health
agencies, nursing homes and DME suppliers. Recent reports and investigations by the OIG
showed that these areas are particularly vulnerable to fraud, waste, and abuse. The ORT
initiative targets California, Florida, New York, Illinois, and Texas. These five States
account for 40 percent of the nation’s Medicare beneficiaries and program expenditures.

METHODOLOGY

Multiple &fethods

In conducting this inspection, we used the following combination of methods: a mail survey
to a sample of Medicare beneficiaries who had claims paid for support surface equipment; a
medical record review for a subsample of these Medicare beneficiaries; an examination of
their support surface billing histories; and a review of Medicare reimbursement data for
support surface codes.

In order to assess the effect of new DMERC support surface medical policies which started
on January 1, 1996, we selected two beneficiary samples for this inspection - the first from
the last quarter (October, November, and December) of 1995, and the second from the
second quarter (April, May, and June) of 1996. Both samples were selected from the HCFA
National Claims History 5 percent file.

See Appendix A for further discussion of our sample selection. Also see Appendix B for
confidence intervals on key survey questions and medical record review results, and
Appendix C for non-respondent analyses.

1995 Sample

For the 1995 sample, we selected a stratified random sample of 300 Medicare beneficiaries


                                                3
who had a support surface claim paid during the last three months of 1995. We selected 50
beneficiaries from each of the five ORT States and the remaining 50 from the rest of the
country. We included the following five codes in this sample: E0194 (air-fluidized bed),
E0193 (powered air flotation bed), E0277 (alternating pressure mattress), EO180 (alternating
pressure pad), and El399 (miscellaneous durable medical equipment). These five codes
accounted for over 90 percent of all support surface reimbursement in the last 3 months of
1995.

After our sample was selected, we determined that most of the claims (110 of 130) for the
El399 code were for equipment that was not a support surface. We therefore excluded these
110 beneficiaries from our sample, leaving us with a usable sample size of 190. After
allowing 2 months for data collection, during which time we conducted a second mailing to
non-respondents, 136 beneficiaries returned their mail questionnaire, for a response rate of
72 percent.

We also selected a subsample of 150 beneficiaries for a medical record review - 25 from
each of the six strata. From these, we had to exclude 58 beneficiaries with El399 claims,
leaving a usable sample size of 92. For each of these 92 beneficiaries, we requested medical
records from the physician listed as the ordering physician on the claim. In some cases, the
physician referred us to the patient’s home health agency for the medical records. After at
least two efforts to obtain accurate addresses, we were unable to locate five of the 92
physicians.

After allowing 2 months for data collection, during which time non-responding physicians
were sent a second follow-up request, we received responses from 58 physicians. Of these
58 physicians, 55 sent us a medical record or other patient specific response (such as a
detailed letter), two said they had never seen the beneficiary, and one said he had never
ordered the support surface equipment.

Once we obtained a medical record or other patient specific response, we used a medical
review contractor to review the documents to determine whether the support surface
equipment the beneficiary had a claim paid for was medically necessary. The contractor
developed a screening document, based on DMERC medical guidelines, Agency for Health
Care Policy and Research (AHCPR) pressure sore guidelines, and with input from one of the
DMERC medical directors. Nurse reviewers then used this screening document to review
the records. Any records which failed this initial screening were referred to a physician
reviewer who then made a final determination of medical necessity.

Due to the big difference between weights used in our analysis of 1995 sample data, the
same number of responses may result in different percentages, depending on the strata from
which those responses come.

1996 Samnle

Due to revised DMERC medical policy changes effective 1996, we stratified our 1996
beneficiary sample differently than our 1995 sample. For 1996, we stratified by HCPCS


                                              4
code rather than by ORT State, in order to assure a large enough number of the one code 

(E0277) that was most affected by the new policies. Additionally, we determined that it was 

necessary to stratify our sample by codes because of the wide variance in frequency of 

support surface codes. 


Therefore, we selected 420 Medicare beneficiaries for our 1996 sample: 290 from stratum 1 

(code EO277), 75 from stratum 2 (code EOBO), and all 55 from stratum 3 (E0193 and 

E0194). These four codes accounted for over 85 percent of all Medicare support surface 

reimbursement during the second 3 months of 1996. With the exception of E1399, these 

four codes were the same codes included in our 1995 sample. After allowing 2 months for 

data collection, during which time we conducted a second mailing to non-respondents, 286 

beneficiaries returned their mail questionnaire, for a response rate of 68 percent. 


We also selected a subsample of 250 of the 420 beneficiaries for the medical review - 145 

from stratum 1, 50 from stratum 2, and all 55 from stratum 3. Despite at least two efforts to 

obtain accurate addresses, we were unable to locate 11 physicians. After allowing 2 months 

for data collection, during which time non-responding physicians were sent a second follow-

up request, we received responses from 127 physicians for a response rate of 51 percent. Of 

the 127 responding physicians, 113 sent us a medical record or other patient specific 

response, 10 said they had never seen the beneficiary, and four said they never ordered the 

equipment. The same contractor and review procedures used to conduct the 1995 medical 

record review were also used for the 1996 subsample. 


Determining InappropriateReimbursement

In determming inappropriate Medicare reimbursement for support surface equipment, we
looked at the following four categories of beneficiary use: equipment that was not medically
necessary; equipment beneficiaries report they never received; equipment beneficiaries report
was less what than Medicare paid for; and duplicate billings for support surface equipment.

While percentages are given for the different categories of inappropriate reimbursement, we
report numbers when discussing individual medically unnecessary claims. Reporting
percentages for these claims would be imprecise, due to their relatively small number.

EstimatingInappropriateMedicare Reimbursement Costs

Estimates for inappropriate Medicare payments were based on allowed Medicare support
surface charges for beneficiaries falling into one of the above four categories. These
estimates are conservative, however, since we assumed Medicare payments were appropriate
for the records not reviewed in the medical record subsample and for the beneficiaries who
did not respond to the mail questionnaire. Additionally, due to relatively small sample sizes,
especially in 1995, the confidence intervals for some estimates are considerably wide.

The medically unnecessary 1996 claims represent $3 million in inappropriate Medicare
payments in the second 3 months of 1996, or $12 million if projected to the entire year,
assuming the rest of the year was comparable to that quarter. Of the 33 beneficiaries who


                                               5
used medically unnecessary support surfaces in 1996, a large    majority (88 percent) used a
group 2 surface. Only four beneficiaries did not use a group    2 surface: three used an air-
fluidized bed and the other a mattress overlay. Furthermore,    costs associated with the latter
are minimal, since monthly rental costs for mattress overlays   are significantly lower than
those for group 2 equipment.

This inspection was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                               6

                                                FINDINGS

WHILE NEW 1996 DMERC GUIDELINES APPEAR TO BE HAVING A POSITIVE
IMPACT ON CONTROLLING MEDICARE COSTS FOR SUPPORT SURFACES,
INAPPROPRIATE PAYMENTS ARE STILL NOTED

Medicare Reimbursementfor Alternating Pressure Mattresses Has Been Decreasing

Up until 1996, Medicare reimbursement for support surfaces had been increasing
significantly, due specifically to a dramatic growth in reimbursement for alternating pressure
mattresses. Payment for these mattresses climbed from $2,777,056 in 1992 to $183,358,943
in 1995. The 1996 DMERC medical policies, which stopped reimbursement for this
equipment if used for prevention, was an attempt to control utilization of these mattresses.
The support surface industry was well aware before the new policy became effective that
such a change would occur.

Since the beginning of 1996, reimbursement for alternating pressure mattresses has been
decreasing. Reimbursement for these mattresses dropped from $183,358,943 in 1995 to
$148,894,337 in 1996. Graph One below illustrates decreases in quarterly reimbursement
amounts, from the last quarter of 1995 through all four quarters of 1996. However, despite
this decrease, alternating pressure mattresses still rank highly in terms of overall Medicare
DME costs. These mattresses were the 12th highest of all DME codes in terms of overall
reimbursement in the third quarter of 1996.

                                   MEDICARE REIMBURSEMENT FOR ALTERNATING
                                    PRESSURE MA-I-I-RESSES DECREASED IN 1996
               $ MILLION
                               8
                     60-
                                                                                         Legend
                     50-                                                                Medicare allowed $




                     30-


                     20 -




                            Qtr 41995   Qtr 1:I 996 Qtr 2:1996 Qtr 3:i 996 Qtr 4:1996




                                                       Graph 1


                                                             7
Despite the new 1996 DMERC medical policies which no longer allow reimbursement for
the alternating pressure mattress solely for the purpose of prevention, 13 percent of our
sample beneficiaries in that year report using their mattress for prevention only.

Twenty-ninepercent of beneficiaries in 1996 used medically unnecessary support su?face
equipment, fewer than did so in 1995

In 1996, 29 percent of beneficiaries used medically unnecessary support surface equipment,
fewer than the 47 percent who did so in 1995. Due to the small 1995 sample size, we
cannot demonstrate that this difference is statistically significant; however, this trend is
consistent with recent actions taken by HCFA. The beneficiaries used one of four different
types of support surfaces, ranging from an inexpensive mattress overlay to a much more
costly alternating pressure mattress. For 113 documents in the 1996 medical record review,
half (50 percent) were medical records. The other half consisted of physician letters, office
notes, and other patient specific responses. The medical review contractor was able to make
a final decision on the question of medical necessity for 91 of the 113 beneficiaries.
Insufficient medical documentation prevented such a decision from being made for the other
22 beneficiaries.

The medically unnecessary 1996 claims represent $3 million in inappropriate Medicare
payments in the second ,3 months of 1996, or $12 million if projected to the entire year.
However, the amount for the year is probably considerably larger than $12 million, since we
were only able to review approximately half of the 250 records in the medical review
subsample. Since we assumed that all of the other half we were unable to review were
medically necessary, our projection of $12 million is a conservative estimate.

The 33 beneficiaries who used a support surface that was medically unnecessary in 1996 are
categorized as follows:

0	     12 used an alternating pressure mattress despite having no pressure sores. This
       contradicts the new 1996 DMERC medical policies for this support surface, which
       state that these mattresses must be used for treatment only.

0	     15 beneficiaries were using a group 2 support surface (mostly an alternating pressure
       mattress) before first trying a group 1 mattress overlay.

0	     four beneficiaries had insufficient medical evidence to warrant use of their support
       surface.                                                  \

0      two beneficiaries used a support surface for pressure sores on their limbs.

More beneficiaries in 1995 than in 1996 used medically unnecessary support surfaces. Of
the 55 beneficiaries in our 1995 medical record review subsample, 47 percent (21
beneficiaries) had claims paid for a support surface that were determined to be not medically
necessary. This represents $14 million in inappropriate Medicare payments in the last 3
months of 1995. Of the 55 physicians, home health agencies, or nursing homes which


                                               8
provided us with some medical documentation, more than half (57 percent) provided
complete medical records. The remaining 43 percent provided some other patient specific
response, such as a detailed letter or office notes. Despite poor documentation for many
cases, however, the medical review contractor was able to make a determination on the
question of medical necessity for all but three of the 55 beneficiaries. The contractor was
unable to make a decision on medical necessity for these three beneficiaries because of
insufficient medical documentation.

The 21 beneficiaries who used a support surface that was medically unnecessary in 1995 can
be categorized as follows:

       13 beneficiaries used a group 2 support surface (almost always an alternating pressure
       mattress for pressure sore care or prevention) before first trying a group 1 support
       surface as required. None of the 13 met the DMERC medical policy criteria that
       would have allowed use of a group 2 support surface without first trying a group 1
       surface. Included in this 1995 group are beneficiaries who would not qualify for
       support surface reimbursement under the new 1996 guidelines, since many had no
       pressure sores.

       three beneficiaries used a support surface for pressure sores on their limbs, not
       allowed by DMERC medical policy.

       three beneficiaries had insufficient medical evidence to warrant use of a support
       surface.

       one beneficiary was using a support surface for a diabetic foot infection, a noncovered
       medical condition.

       one beneficiary’s ordering physician stated that while the support surface he ordered
       for his patient was medically necessary, it was delivered after the patient died and
       therefore was never used.

Twelvepercent of beneficiaries in 1996, downfrom 22 percent in 1995, report receiving
upcoded equipment or no equipment at all, or had duplicate billings

Fewer beneficiaries in 1996 (12 percent) than in 1995 (22 percent) report problems with
upcoded or undelivered equipment, or had duplicate billings. Again, due to the small 1995
sample size, we are unable to determine if this difference is statistically significant. While
the new 1996 DMERC guidelines do not directly address these problems, the SADMERC’s
improvement of its existing coding verification process for suppliers with questions about
which code to use for their equipment may be having some positive effect here. The
inappropriate 1996 claims represent $922,000 in allowed Medicare payments in the second
quarter of 1996.




                                               9

The 12 percent in 1996 are categorized as follows:

0	     7 percent of 286 beneficiaries report receiving equipment that was less than what
       Medicare paid. Seven beneficiaries had claims paid for alternating pressure
       mattresses, and another seven for alternating mattress overlays. While the claims
       paid for these 14 beneficiaries used codes for electrically powered equipment, they all
       report that their equipment does not have an electric plug.

0	     4 percent of beneficiaries report never receiving support surface equipment. Seven
       claims were paid for alternating pressure mattresses, two for alternating mattress
       overlays, and another two for powered air flotation beds.

0	     1 percent of beneficiaries had duplicate support surface billings, two for the same
       equipment and the third for two different types of equipment, all within the same
       month.

In 1995, 22 percent of 136 Medicare beneficiaries report receiving either upcoded equipment
or no equipment at all, or had duplicate support surface billings. These claims represent
$6.6 million in allowed Medicare payments in the fourth quarter of 1995.

The 22 percent in 1995 are categorized as follows:

0	     13 percent of beneficiaries report receiving equipment that was less than what
       Medicare paid for. These beneficiaries report that the equipment they are using for
       the care of their pressure sores does not have an electric plug. However, all of the
       claims paid for these individuals used codes for electrically powered equipment - eight
       for alternating pressure mattresses, one for a powered air flotation bed, and one for
       an alternating mattress overlay.

0	     4 percent of beneficiaries report never receiving any kind of support surface
       equipment. All of these beneficiaries, however, had a Medicare claim paid for some
       type of support surface equipment. Four claims were for alternating pressure
       mattresses, and three were for alternating mattress overlays.

0	     5 percent of beneficiaries had duplicate billings. In all of these cases, more than one
       support surface was billed and paid for under Medicare within the same month, which
       Medicare coverage policy does not permit. Two beneficiaries had two claims paid for
       the same equipment, while five had claims paid for two different types of support
       surfaces, usually a support surface overlay and a support surface mattress, within the
       same month.

A VARIETY OF OTHER PROBLEMS CONTINUE TO ADVERSELY AFFECT
MEDICARE SUPPORT SURFACE REIMBURSEMENT

The following problems are due to a lack of adherence to existing DMERC guidelines, and
were not impacted in any way by the establishment of new 1996 DMERC policies.


                                              10
Some Beneficiaries Are Using Group 2 Support Surface Equipment Before First Trying A
Less Expensive Support Surface From Group 1;9 Out Of 10 Have No Documentation Of
A Comprehensive Pressure Sore Treatment Program

As noted in the medical record reviews for both years, some beneficiaries are using a support
surface from group 2 without first trying equipment from group 1. These beneficiaries
include those without any pressure sores as well as those with stage II pressure sores, all of
whom should have first tried a lesser, group 1 support surface as part of their comprehensive
treatment plan before moving to a group 2 support surface. Only 10 percent of beneficiaries
in the 1996 medical record review had documentation which demonstrated the existence of a
comprehensive pressure sore treatment program.

Other Beneficiaries Report Continuing Use of Their Support Surface After Their Pressure
Sore Healed

In both 1995 and 1996, more than one-third (37 percent and 38 percent, respectively) of
beneficiaries report continuing to use their group 2 support surface equipment after their
pressure sores healed completely. While DMERC medical policies do not allow continued
coverage of support surfaces once the patient’s pressure sore has healed completely,
Medicare continued to pay rental for 63 percent of beneficiaries with healed sores in 1995
and 8 1 percent in 1996.

PhysiciansPlayA Limited Role

Based on the limited medical documentation of beneficiaries’ pressure sore treatment in both
years, physicians appear to be playing a limited role in their patients’ use of support
surfaces. In 1995, plans of care were submitted to us for just 23 percent of beneficiaries,
only four of which included a reference to pressure sore treatment. Documentation showing
the patient tried preventative treatment prior to the use of a support surface was available for
only 38 percent of beneficiaries. Furthermore, according to the medical record review, just
37 percent were educated on the management of their pressure sores, and only 23 percent
were regularly assessed by a healthcare practitioner; both of these practices are listed in
DMERC medical policies as being part of a patient’s plan of care.

In 1996, we received plans of care for just 30 percent of beneficiaries, only one-third of
which specifically addressed pressure sore treatment. Furthermore, documentation of
preventive treatment tried prior to use of a support surface was available for only 23 percent
of beneficiaries. According to the medical record review, only one-third of beneficiaries
were educated on the management of their pressure sores, and just one-third were regularly
assessed by a healthcare practitioner.

Finally, on a related note, in 1995, 5 percent of physicians report either having no record of
the patient for whom they were listed as the ordering physician or report never ordering
support surface equipment for their patients. Even more physicians in 1996 - 14 percent -
report the same problems.



                                               11 

Some Beneficiaries Report Using Their Equipment Improperly

Five percent of beneficiaries in each year appear not to be using their electrical equipment 

properly. This improper use reduces the medical efficacy of their equipment. Some of these 

beneficiaries report never plugging in their support surface bed, mattress or mattress overlay, 

despite the fact that their equipment has a plug that must be used in order for it to work. 

Others plug it in only occasionally when using it. 


Such improper use of equipment may suggest a lack of adequate patient education. 

However, most of all beneficiaries in both 1995 and 1996 (72 and 77 percent respectively) 

report that the supplier taught them how to use their equipment. Only 2 percent in 1995 and 

3 percent in 1996 report having to teach themselves how to use their equipment by reading a 

manual. Furthermore, more than one-third of all beneficiaries in both years report 

contacting their supplier when they have any questions about their support surface equipment. 


Place Of Service Coding Is Not AlwaysAccurate

Twelve percent of beneficiaries in 1995 and 4 percent in 1996 report living in a nursing
home on their survey questionnaire. However, more than half of these beneficiaries in 1995
and all of them in 1996 had claims with “home” coded as the place of service. These cases
may not necessarily be problematic. However, a supplier billing for the equipment in this
way makes a greater profit: they would be paid 15 months of a high rental price by the
DMERC and beneficiary, as opposed to being paid a lower purchase price by the nursing
home.

MOST BENEFICIARIES WITH APPROPRIATELY PAID CLAIMS REPORT
POSITIVE EXPERIENCES WITH THEIR SUPPORT SURFACE EQUIPMENT

Beneficiaries Report Benefitting From Their Support Surface Use

Of the beneficiaries in 1995 and 1996 who received electrical equipment which was both
medically necessary and properly used, a majority report positive experiences with their
equipment. More specifically, in 1995, 79 percent of these beneficiaries report that their
pressure sores healed completely or improved because of their support surface. Of these, 47
percent say it took 1 month or less for this healing or improvement to occur, while the
remaining 53 percent say it took longer than 1 month (for 20 percent, more than 6 months).
One beneficiary reports that his equipment is “a very good product. I would have trouble
without it. ” Another says “my mattress does wonders. ”

In 1996, 89 percent of beneficiaries with appropriately paid claims report a complete
recovery from or improvement of their pressure sores since using their support surface
equipment. Almost half (46 percent) say this took 1 month or less, while the remaining 54
percent say it took longer than 1 month (longer than 6 months for 9 percent of beneficiaries).




                                               12 

                      RECOMMENDATIONS

While the new 1996 DMERC guidelines appear to be having a positive impact on controlling
Medicare costs for support surfaces, inappropriate payments are still being made and other
problems continue to adversely affect Medicare reimbursement for this equipment. We
therefore believe that additional steps can be taken to reduce the extent of inappropriate
support surface payments. In particular, we recommend that:

HCFA establish the requirement for periodic review and renewal of the medical
necessity for beneficiaries’ use of group 2 support surface equipment.

We recognize that establishing such a requirement may be cumbersome to both the DMERCs
in processing claims and to the suppliers in obtaining the necessary information. However,
we believe that this requirement should help to eliminate problems identified in this report.
These include beneficiaries’ inappropriate and improper use of support surfaces, provision of
upcoded equipment, and poor documentation of support surface use. Periodic recertifications
could be done every 3 months and completed by a healthcare practitioner.

We estimate that implementing this requirement would save as much as $12 million annually.
Actual savings could be considerably larger than this amount.

COMMENTS

We received comments on the draft report from HCFA and the Assistant Secretary for
Planning and Evaluation. We also solicited and received comments from 3 industry groups,
the Health Industry Manufacturers Association (HIMA), the National Association for Medical
Equipment Services (NAMES), and the Health Industry Distributors Association (HIDA).

The HCFA does not concur with our recommendation that it establish the requirement for
periodic review and renewal of the medical necessity for beneficiaries’ use of group 2
support surface equipment. It does not believe such a requirement is necessary since group 2
support surface claims must have a ZX modifier, which indicates the supplier has
documentation that medical policy requirements have been met. Furthermore, the HCFA is
concerned about the timeliness and costs associated with utilizing a certificate of medical
necessity (CMN) for group 2 equipment.

In response, we point out that our recommendation did not specifically state that a CMN be
used for periodic review and renewal of medical necessity. In fact, we deliberately did not
recommend that a CMN be used because of the same concerns of timeliness and costs.
However, we feel strongly that some other mechanism be used to review and renew medical
necessity. We do not believe the ZX modifier is sufficient to do this, since there is no
requirement for additional medical evidence to support it beyond the initial medical necessity
determination. Currently, there is no mandate for any additional, ongoing review of medical
necessity. Furthermore, the findings of our report indicate inappropriate utilization which
warrants, in our opinion, some type of corrective action.


                                              13
We believe that the Statement of the Ordering Physician, which must be filled out prior to
delivery and is kept on file with the supplier, could be used to implement our
recommendation. This would assure that the equipment continues to be medically necessary.
Such a review could also assure that the beneficiary is using the equipment appropriately and
using equipment that is properly coded.

All three industry groups support, on some level, our recommendation. The HIMA is in
“complete agreement” and states that this is a position they have held for the past several
years. The NAMES supports using the Statement of the Ordering Physician, but on a 6
month basis; HIDA agrees with the 6 month timeframe. We believe a 3 month time
requirement for review and renewal, as suggested by HIMA, is the best option, and have
changed the recommendation accordingly.

Both HCFA and ASPE raised questions about our cost savings estimate of $12 million. We
have added a further explanation as to how we derived this estimate in the report’s
methodology. The ASPE suggests we conduct a cost-benefit analysis for implementing our
recommendation. While we acknowledge that certain costs would be incurred by
implementing this recommendation, we believe that these costs are likely to be minimal,
particularly since the Statement of the Ordering Physician is already kept on file by the
supplier.

The HCFA also states that it is unaware of any new support surface coding verification
process by the SADMERC. During discussions with SADMERC staff, however, they
indicated that they had improved their existing coding verification process to accommodate
changes in support surface policies and new support surface codes and now sends out a sheet
with guidelines for suppliers wanting written coding verification. As HCFA notes, this
process is optional to suppliers requesting assistance.

Finally, in response to HCFA’s other technical comments, we have made additional
clarifications to the text in both the background and findings sections. The full text of all
comments are included in Appendix D.




                                               14 

                                APPENDIX                  A

                                  SAMPLE SELECTION

I. Defining the Universe

We selected two samples of beneficiaries for this inspection, one from 1995 and the other
from 1996. We also selected subsamples from each of the two samples. Using HCFA’s
National Claims History (NCH) 5 percent sample file, we extracted all Medicare Part B line
items meeting the following five criteria:

        1. Processed by DMERCs
        2. 	HCFA had received and posted the claims as of
              12/31/95 for the 1995 sample and 06/30/96 for the 1996 sample
        3. 	HCPCS code of E0180, E0193, E0194, E0277, or El399 for
              the 1995 sample and HCPCS code of EO180, E0193, E0194, E0277 for
              the 1996 sample.
        4. Allowed dollar amount greater than zero
        5. 	An ending date for line item services (TDT) between
              lo/O1195 and 12131195for the 1995 sample,
              and between 04/01/96 and 06/30/96 for the 1996
              sample.

  II. 	 1995 Sample Selection
           :
  The original universe consisted of 7,454 line items attributable to 4,178 beneficiaries.
  After removing the line items of 648 beneficiaries whom HCFA’s Enrollment Database
  (EDB) show to be deceased, and by selecting the most recent line item for each
  beneficiary, we were left with a final universe of 3,530 line items, each attributable to a
  unique beneficiary.

  We stratified the universe by ORT State and an “all other” category based on
  beneficiaries’ zip codes. We then randomly selected 50 beneficiaries from each of the six
  strata, for a total original sample size of 300. Our original subsample was then
  constructed by randomly selecting 25 beneficiaries from each stratum, for an initial
  subsample of 150.

  Once it became clear that only 20 of the 130 beneficiaries with HCPCS code El399
  claims had used support surface equipment, we dropped them from the original sample.
  This reduced the original sample size from 300 to a final sample size of 190 and the
  original subsample size from 150 to a final sample size of 92.




                                            A-l
                                                1995 SAMPLE 

             Strata                   Universe        Original Sample       Final Sample
   1. (FL)                        I     285                 50                   33
   2. (NY)                        I     125                 50                   46
   3. (CA)                        I     441                 50                   15
   4. (IL)                        I      99                 50          I        32     11
   5. (TX)                        I     272                 50                   31
   6. (Other States)              I     2308                50                   33


  TOTAL                           I     3530


                                                1995 SUBSAMPLE
             Strata                   Universe          Oz2F            / Final S;rample


   1. (FL)                    I         285
  2. (NY)                               125                 25                   23

  3. (CA)                               441                 25                    8
  4. (IL)                                99                 25                   12
  5. (TX)                               272                 25                   15
  6. (Other States)                    2308                 25                   18


 TOTAL                                 3530                 150                  92 



III. 1996 Sample Selection

The original universe consisted of 3,225 line items attributable to 1,701 beneficiaries.
After removing the line items of 228 beneficiaries whom HCFA’s Enrollment Database
(EDB) show to be deceased, and by selecting the most recent line item for each
beneficiary, we were left with a final universe of 1,473 line items, each attributable to a
unique beneficiary,

We stratified the 1996 sample by HCPCS code, one stratum for E0277, one for E0180,


                                              A-2 

and one for both E0193 and E0194. We then randomly selected 290 cases from stratum
1, 75 from stratum 2, and 55 from stratum 3, to form a sample of 420 beneficiaries. Our
subsample was then constructed by randomly selecting 145 cases from stratum 1, 50 from
stratum 2 and 55 from stratum 3, yielding a subsample of 250 beneficiaries.

                                    1996 SAMPLE

                   Strata                        Universe              Sample

       1. (HCPCS E0277)                             800                  290
       2. (HCPCS E0180)                             618                   75

       3. (HCPCS E0193/E0194)                        55                   55


 TOTAL                                              1473                 420


                                  1996 SUBSAMPLE

                   Strata                         Universe             Subsample
        1. (HCPCS E0277)                             800                  145

       2. (HCPCS E0180)                              618                   50

       -3. (HCPCS E0193/E0194)                       55                    55


 TOTAL                                              1473                  250




                                       A-3
                              APPENDIX                  B

                CONFIDENCE INTERVALS FOR KEY QUESTIONS

We calculated confidence intervals for 14 key questions (seven from the beneficiary mail
questionnaire and seven from the medical record review). The response estimate and 95
percent confidence interval are given for each of the following:

From the mail auestionnaire

1. 	   Have you ever received medical equipment, such as a special bed, mattress or
       mattress overlay, for the care of pressure sores?
                                                         1995         1996
       “Yes” response estimate:                           96%          96%
       Lower interval:                                    90%          93%
       Upper interval:                                   100%          99%

2. 	   Was the support surface paid inappropriately (i.e., was the support surface never
       received, was the equipment upcoded, or were duplicate billings paid)?
                                                           1995         1996
       “Yes” response estimate:                             22%          12%
       Lower interval:                                      10%           8%
       Upper interval:                                      34%          16%

3.     Have you ever had a pressure sore?
                                                         1995           1996
       “No” response estimate:                           N/A             13%
       Lower interval:                                   N/A              8%
       Upper interval:                                   N/A             18%

4.     Who taught you how to use your special bed, mattress or mattress overlay?
                                                        1995          1996
       “The company that supplies the
         product” response estimate:                    72%            77%
       Lower interval:                                   58%           71%
       Upper interval:                                   86%           84%

5. 	   Since using your special bed, mattress or mattress overlay, have your pressure
       sore(s) healed completely, improved, remained the same, or gotten worse?
                                                          1995          1996
       “Healed completely” response estimate:              37%           38%
       Lower interval:                                     21%           31%
       Upper interval :                                    54%           45%




                                            B-l
6. 	   Who do you talk to when you have questions about using your special bed,
       mattress or mattress overlay?
                                                       1995          1996
       “Someone from the company that supplies
         the product” response estimate:                37%           57%
       Lower interval:                                  23%           50%
       Upper interval:                                  52%           64%


7.     Where do you live?
                                                          1995         1996
       “In a nursing home” response estimate:              12%          4%
       Lower interval:                                     22%          2%
       Upper interval:                                      2%          7%


From the medical record review

8.     Was support surface medically indicated?
                                                          1995         1996
       “No” response estimate:                             47%          29%
       Lower interval:                                     24%          20%
       Upper interval:                                     70%          38%

9.     Information source
       ;
                                                          1995         1996
       “Medical record” response estimate:                 56%          50%
       Lower interval:                                     34%          39%
       Upper interval :                                    78%          61%

10.    Was there a written plan of care that addressed patient risk?
                                                          1995         1996
       “Yes” response estimate:                            33%          30%
       Lower interval:                                     12%          20%
       Upper interval :                                    54%          40%

11.    Did the plan of care address pressure ulcer treatment?
                                                          1995         1996
       “Yes” response estimate:                            25%          31%
       Lower interval:                                      5%          21%
       Upper interval:                                     45%          41%




                                             B-2 

12.     Was preventative treatment initiated prior to ordering surface?
                                                            1995          1996
        “Yes” response estimate:                             38%          23%
        Lower interval:                                      16%           31%
        Upper interval :                                     54%           15%

13. 	   Was there documentation of education of the patient and caregiver on the
        prevention and/or management of pressure ulcers?
                                                          1995           1996
        “Yes” response estimate:                           37%            31%
        Lower interval:                                    15%           21%
        Upper interval:                                    59%           41%

14. 	   Was there documentation of regular assessment by a nurse, physician, or other
        licensed healthcare practitioner at least weekly?
                                                          1995         1996
        “Yes” response estimate:                           23%          33%
        Lower interval:                                     5%          23%
        Upper interval:                                   41%           43%




                                            B-3 

                             APPENDIX                   C

                           NON-RESPONDENT ANALYSES

When surveys are used to collect data, the results may be biased if non-respondents differ
from respondents. For this inspection, a beneficiary for whom a survey was not received
is a non-respondent.

1995 Samrde

For the 1995 beneficiary sample, due to the relatively small sample size and resulting
small cell sizes in the two-variable tables, we were only able to analyze one variable.
To test for the presence of any non-response bias in the 1995 survey data, we obtained
information from HCFA’s National Claims History 5 percent file for all 190 beneficiaries
who were sent a questionnaire. A total of 136 surveys were returned, for a response rate
of 72 percent. The following table illustrates the number of responses and the response
rate by strata:

STRATA                              NUMBER                RESPONSE RATE

1 (FL)                               33                          73
2 WY)                                46                          61
3 (CA)                               15                          67
4 (IL) ;                             32                          75
5 (TX)                               31                          84
6 (U.S.)                             33                          73

Total Respondents                   190                          72

The survey data are analyzed as a whole and not by strata. However, we did exceed the
desired minimum 60 percent response rate for each stratum.

For the 190 individuals in our sample, we looked at their sex. This categorical variable
was tested using the Chi-Square with the appropriate degrees of freedom. The results are
presented in Table A.




                                           C-l
                                             TABLE A 


                                                SEX
                      Respondents               Non-respondents        Total    Response
                                                                                Rate
 Male                41          30%             15        28%          56          73%

 Female              95          70%             39        72%          134         71%



 Total                     136                        54                190         72%

 CHI-SQ = .104
 Degree of Freedom = 1

1996 SamDle

To test for the presence of any non-response bias in the 1996 survey data, we obtained
information from HCFA’s National Claims History 5 percent file for all 420 beneficiaries
who were sent a questionnaire. A total of 287 surveys were returned, for a response rate
of 68 percent. The following table illustrates the number of responses and the response
rate by strata:

STRATA                                 NUMBER               RESPONSE RATE

1 (H&S   E0277)                        196                        68
2 (HCPCS EO180)                         54                        72
3 (HCPCS E0193/E0194)                   37                        67

Total Respondents                      287                        68


The survey data are analyzed as a whole and not by strata. However, we did exceed the
desired minimum 60 percent response rate for each strata.

To test for the presence of any non-respondent bias, we analyzed the variables that might
influence whether an individual would respond to the survey or that might affect his or her
responses. For the 420 individuals in our sample, we looked at their sex, support surface
used, and place of service. These categorical variables were tested using the Chi-square
with the appropriate degrees of freedom.

The results of this analysis are presented in tables A, B and C. The Chi-square values
given in the tables provide a test of the difference between the distribution of the
respondents and that of the non-respondents for the variable of interest. Also provided in
the tables are the response rates by the different values of the variables.



                                               c-2
These tables show no statistically significant difference between respondents and non-
respondents for any of the variables tested. Given the results of this analysis, we believe
that the original results fairly represent the opinions of the sample of beneficiaries to
whom the questionnaires were sent. We therefore believe that our survey results can be
generalized to the universe of Medicare beneficiaries who had a support surface claim
paid during the second 3 months of 1996.
                                            TABLE A

                                             SEX
                       Respondents           Non-respondents           Total 	    Response
                                                                                  Rate
  Male               105          37%         46             35%        151           70%
  Female             182          63%         87             65%        269           68%


  Total                     287                      133                420           68%
  CHI-SQ = .158 

  Degree of Freedom = 1 



                                         TABLE B

                               SUPPORT SURFACE BILLED
                       Respondents           Non-respondents            Total 	    Response
                                                                                   Rate
  Alternate          196          68%         94             71%         290          68%
  pressure
  mattress
  mO277)
  Other sample        91          32%          39            29%         130          70%
  equipment
  (EO180,
  E0193,
  E0194)


  Total                     287                      133 
               420          68%
  CHI-SQ = .242 

  Degree of Freedom = 1 





                                            c-3
                                      TABLE C 


                                   PLACE OF SERVICE 


II            I    Respondents        1    Non-respondents      1   Total   1 Response
                                                                              Rate
 Home             273         95%           128           96%       401         68%

 Not Home         14          4%                5         5%         19         73%



 Total                  287                         133             420         68% 



II 

 CHI-SQ = .263 

 Degrees of Freedom = 1                                                                  II





                                          c-4
                            APPENDIX                   D

In this appendix, we present in full the comments from the Health Care Financing
Administration and the Assistant Secretary for Planning and Evaluation.




                                          D-l
      DEPARTMENT       OF HEALTH   & HUMAN   SERVICES                  Health Care Financing   Administration

                                                                                                                _

                                                                       The Administrator
                                                                       Washington, D.C.    20201
                           MAY I 6 1997
DATE:

TO:            June Gibbs Brown
               InsDector General
                   I




FROM:          Bruce C. Vladeck’
               Administrator

SUBJECT:       Office of Inspector General (OIG) Draft Report: “Pressure Reducing
               Support Surfaces,” (OEI-02-95-00370)


We reviewed the above-referenced report that describes the extent of inappropriate
Medicare payments for pressure reducing support surfaces and assesses the effect of new
1996 durable medical equipment regional carrier medical policies and coverage
guidelines.

Our detailed comments on the report’s recommendation are attached for your
consideration. Thank you for the opportunity to review and comment on this report.

Attachment -
                Comments of the Health Care Financing. Administration (HCFA) 

                    on Office of Insuector General (OIG) Draft Reoort: 

                          “Pressure Reducing Sunport Surfaces.” 

                                    /OEI-02-95-00370) 



OIG Recommendation

HCFA should re-establish the requirement for periodic review and renewal of the medical
necessity for beneficiaries’ use of group 2 support surface equipment.

HCFA Resnonse

We do not concur. Additionally, we do not believe such a requirement would save as much as
$12 million annually. We believe use of the ZX modifier will continue to decrease the
inappropriate utilization of support surfaces. As noted in the report, the new 1996 durable
medical equipment regional carrier (DMERC) guidelines have had significant impact on
controlling medically-unnecessary Medicare reimbursement for support surfaces. The downward
trends in inappropriate payment for this equipment appear to be continuing.

In order to perform the type of recertification suggested by OIG, the DMERCs would need to
utilize a certificate of medical necessity (CMN). However, at this time there is no applicable or
appropriate CMN for the DMERCs to use for support surface equipment other than the CMN for
air-fluidized beds. CMN changes must be made via the national standard format system. These
changes are iostly and can only be made once a year. The earliest we could institute this
requirement would be July 1998.

In lieu of using a CMN, the DMERCs require suppliers to use a HCFA common procedure
coding system ZX modifier for support surface equipment. The ZX modiier indicates the
supplier has documentation that medical policy requirements have been met and evidence is
available in the supplier’s records. The documentation section of the support surface policy
requires that an order for a mattress or bed be signed and dated by the ordering physician and
kept on file by the supplier. This statement must be supported by information in the patient’s
medical record which would be available to the DMERC on request. Suppliers are instructed to
add the ZX metier to the code for the equipment only ifall of the specified medical necessity
and documentation requirements are met. The use of this modifier will allow the DMERCs to
monitor and analyze utilization of the modifier for support surface equipment. Consequently, data
analysis can be performed consistent with the focused-medical review approach and actions can be
taken to correct inappropriate billing practices. The policy also states that once the ulcer has
healed, the ZX modifier should not be used. If the requirements for use of the modifier are not
met, the supplier can submit additional information with the claim to just@ coverage, but the ZX
modifier should not be used. If a supplier uses the ZX modifier despite the applicable
 requirements not being met, the supplier is submitting fraudulent claims to the Medicare program.
Page 2

At this time, we have no way to control whether or not suppliers submit accurate and truthful
medical necessity information regardless of the mechanism used to collect the information. This
type of fraudulent behavior may only be discovered through a post-payment review of claims.

Therefore, the DMERCs are continuing to require that suppliers substantiate the medical necessity
of equipment, but have chosen to do so through the use of the ZX modiier instead of a CMN.
The use of the ZX modifier has significantly decreased inappropriate utilization of support surface
equipment. However, it should be noted that neither the ZX modifier nor a CMN will solve many
of the abuses identified in the OIG report. For example, neither mechanism will be able to
discover whether beneficiaries are improperly or inappropriately using their equipment; i.e.,
beneficiaries never plugging in their equipment. In addition, neither mechanism will be able to
determine whether or not the supplier delivered the same equipment that was billed to Medicare
or whether the equipment was delivered at all.

Technical Comments

We believe there is incorrect information in the Background section of the report, sub-heading
“Medicare Coverage of Support Surfaces.” The first paragraph, last two sentences state: “The
new guidelines also no longer require monthly recertification for support surface equipment, with
the exception of air-fluidized beds. Additionally, the Statistical Analysis DMERC (SADMERC)
initiated a new process of coding verification for support surface equipment.” These statements
are incorrect. Monthly recertification has never been required for all support surface equipment.
Air-fluid&d beds are the only items that were ever subject to recertification requirements. This
requirement continues. Additionally, we are unaware of any new coding verification process that
has been developed by the SADMERC. The SADMERC coding verification process is an
optional process whereby a supplier may get assistance in identifying the appropriate code for
billing. The SADMERC has always been responsible for responding to inquiries from suppliers
regarding the appropriate codes to use when billing Medicare. Suppliers are not required to
contact the SADMERC for coding guidance for support surface products.

One of the findings states that “13 beneficiaries used a group 2 support surface that was medically
unnecessary before first trying a group 1 support surface as required.” It should be noted the
policy allows for a group 2 support surface to be covered under certain circumstances without
first trying a group 1 surface; e.g., if the patient has large or multiple stage III or IV pressure
ulcers on the trunk or pelvis or if the patient had myocutaneous flap or skin graft surgery within
the past 60 days for a pressure ulcer on the trunk or pelvis.

Another finding states the DMERCs continued to pay the rental of support surface equipment for
63 percent of beneficiaries with healed ulcers despite the policy not allowing “continued coverage
of support surfaces once the patient’s pressure sore has healed completely.” It is not clear
whether this statement means that coverage of just the group 2 product would be
Page 3

discontinued, or ifall support surface equipment would not be covered once the ulcer healed.
Therefore, it should be noted that if a patient qualified for a group 2 support surface, and the
pressure ulcer healed, the DMERCs would cover a Group 1 support surface to prevent the
recurrence of the pressure ulcer.

The study also found that “physicians appear to be playing a limited role in their patients’ use of
support surfaces” and that “nine out of ten beneficiaries have no documentation of a
comprehensive pressure sore treatment program.” Although this may be true, the DMJZRC policy
requires that patients have a comprehensive care plan established by the patient’s physician or
home care nurse, and documented in the patient’s medical records. In addition, the policy also
requires the supplier obtain a signed and dated statement from the physician attesting to the
medical necessity of the equipment. Questions pertaining to medical necessity on any form used
to collect this’information may not be completed by the supplier or anyone in a financial
relationship with the supplier. Therefore, we believe the policy goes as far as it can in requiring
an active role on the part of the patient’s physician.
        DEPARTMENT   OF HEALTH     & HUMAN     SERVICES                        Office of the Secretary



                                                                               Washington,   D.C.   20201




TO: 	         June Gibbs Brown
              Inspector General

FROM:          David F. Garrison d-
               Principal Deputy Assistant Secretary
                for Planning and Evaluation
                                                                               02-+5=         a0370
SUBJECT:       OIG Draft Report: “Pressure Reducing Support Surfaces,” m
               CONCUR WITH COMMENT

The Medicare DME benefit includes coverage of three different types of pressure reducing
surfaces -- categorized as group 1, group 2, and group 3. These surfaces (e.g., beds, mattresses,
and related equipment) are considered durable medical equipment and they are used to reduce
decubitus ulcers. Groups 1 and 2 surfaces must be ordered by a physician and the order must be
kept on file by the supplier. For group 3 surfaces there is an additional requirement for a
certificate of medical necessity, which must be updated monthly. The OIG inspection described
in the report found frequent use of more expensive group 2 equipment without prior trial of
simpler group 1 devices.

The OIG recommends that HCFA periodically review the medical necessity of group 2 support
surfaces for beneficiaries who use these surfaces and indicates that such a review process will
produce $12 million in annual savings. However, it was unclear how this amount of savings was
determined. The OIG study points out that, in 1996, had & medically unnecessary claims not
been paid, $12 million would have been saved. Given that the scope of the OIG’s
recommendation seems to address only a subset of these medically unnecessary claims, it was
unclear how a subset of those claims could also produce $12 million in savings. We recommend
the report clarify how it arrived at the $12 million in savings.

In addition, the OIG report does not indicate the costs of implementing a requirement to conduct
periodic reviews and the extent to which any savings would be reduced by these costs. Such an
estimate should be fairly straightforward since monthly recertifications were previously
conducted. We recommend the report estimate the administrative costs of conducting the
recommended reviews and recertifications, and emphasize how much the estimated savings
would be offset by these added costs.                                              J
                                                                         L      zzz
                                                                        iti:   z
                                                                        DIG-AS ,y

                                                                        E-E    I&
                                                                        D&I
                                                                        DIG-MP =
                                 HEALTH INDUSTRY       MANUFACTURERS             ASSOCIATION




May 1,   1997


The Honorable June Gibbs Brown 

Inspector General 
                                                                     DIGAS
Department of Health and Human Services 
                                               ZiE       V

330 Independence Avenue, S.W. 
                                                         DIG-01
Room 5246 
                                                                             !EE
                                                                                        O&O
Washington D.C. 20201 
                                                                 Extcscc
                                                                                        DateSen
Dear Inspector General Brown: 


The Health Industry Manufacturers Association (HIMA) is pleased to be asked by your office to
respond to the draft report titled “ Pressure Reducing Support Surfaces.” The Health Industry
Manufacturers Association (HIMA) is a Washington, D.C.-based.trade association and the
largest medical technology association in the world. HIMA represents more than 700
manufacturers of medical devices, diagnostic products, and medical information systems.
HIMA’s members manufacture nearly 90 percent of the $55 biion of health care technology
products purchased annually in the United States, and more than 50 percent of the $130 billion
purchased annually around the world.

*First of all, we appreciate that you addressed our concerns when we suggested in our February
 21,1996 letter to Penny Thompson, Chief, Health Care Branch, that the time period during
 which you would be collecting the data be changed to take into consideration proper
 implementation of the support surfaces medical coverage policy. We believe that your data has
 more validity coming from the second quarter of 1996, rather than retrieving it from the first
 quarter as you originally intended to do.

HIMA is in complete agreement with your recommendation that HCFA re-establish the
requirement for periodic review and renewal of the medical necessity for beneficiaries’ use of
group 2 support surfaces. In fact, this is a position that we have held throughout the development
and implementation of the Durable Medical Equipment Regional Carrier (DMERC) medical
policy for support surfaces. We would suggest, however, as we did in our October 25, 1995 letter
to the DMERC medical directors concerning the support surface policy, that review and renewal
of medical necessity documentation should occur every three months.

We would recommend that the current medical necessity document (i.e., the “Statement of the
Ordering Physician”) and procedures be utilized to initially establish the medical necessity and
to renew. Utilizing this document and procedure would achieve the goals outlined in the OIG
report, while not making the claims fling and processing tasks more cumbersome. Based on the
current DMERC support surface medical coverage policy, the Statement of the Ordering
Physician is required before set-up. It is not filed with the claim; but rather it is maintained inthe
                                    World Leaders in Health Care Innovation

                                     1200    G   STREET.        N       W   .   SUITE      400

                                      WASHINGTON.           D       C       20005-3814

                                  (202)     783.8700       FAX          (202)       783.8750
Inspector General Brown 

May 1, 1997 

Page 2 


patient’s chart and provided upon request. In this way, electronic claims filing is available if 

requested or as part of a post payment audit. This procedure and documentation appears to be 

working well in initially establishing medical necessity. We believe that it should be fairly easy 

for the DMERC medical directors to add similar language to the current policy to require it for 

renewal. 


In addition, to reinforce the results of your study, we believe that the “cascading” coverage 

criteria from overlay to mattress replacement should be reinstated. Again in our comments to the 

DMERC medical directors, we noted that in the September 1995 support surfaces medical 

coverage policy, the coverage criteria for all group 2 products is the same. However, in the 

August 1994 proposed policy and in the recommendations of the interested associations, a 

coverage criteria cascade existed from overlay, to mattress replacement, to bed system. The 

cascade approach allowed for a much clearer selection process based not only on therapeutic 

wound care benefit, but on the physical needs of the beneficiary; and on their other clinical 

indicators, (i.e. need for frequent adjustment, weight factors, etc.) 


HIMA’s recommendation was (and still is) that, for the most part, industry agreed with the 

“cascading” coverage criterion that was included in the August 1994 proposed policy. This 

included “bottoming out” as an additional criterion to move from a group 2 overlay to a group 2 

mattress replacement. Industry agreed to these parameters. Also, such standards would result in a 

selection process which is more customized to the patient. Based on this, we believe that it 

would be advantageous for the DMERC medical directors to reinstate the “cascading” coverage 

criteria from overlay to mattress replacement in group 2. 


Finally, we would like to compliment the staff that were involved in the creation and 

implementation of this draft report. We have worked closely with your staff in the past and have 

developed an excellent working relationship. We were delighted to have the opportunity to work 

with and serve as an educational resource to Demetra Arapakos and her stti concerning support 

surfaces during the course of the study and at the Medtrade exposition in Atlanta. 


Again as always, we appreciate the opportunity to comment on the draft report. 


Sincerely, 



Marcia Nusgar& Ph. 

Associate Vice President, Home Care 

                     HEALTH INDUSTRY DISTRIBUTORS ASSOCIATION
                     Serving Medical Products Distributors & Home Care Companies Since 7902




April 29, 1997 


June Gibbs Brown 

Inspector General 

Office of the Inspector General 

Department of Health and Human Services 

Washington, DC 20201 


RE:    Comments on Draft Inspection Report on Pressure Reducing Support Surfaces
                                                           (pa- uz- czsdm37c,
Dear Ms. Brown 


Thank you for providing HIDA with a copy of the draft inspection report entitled “Pressure 

Reducing Support Surfaces.” HIDA is the national trade association of home care companies and 

health and medical product distribution firms. Created in 1902, I-IIDA now represents 

approximately 800 home care companies and wholesale and retail medical product distributors 

with over 2,000 locations. 


Subsequent to reviewing the draft report, HIDA recommends that the OIG modify the 

recommendation that HCFA require periodic recertification of medical necessity for support 

surface equipment on a monthly or bi-monthly basis. Given that the internal part of a wound often 

needs greater than three months to properly heal, HIDA believes any requirement of recertification 

in less than a three month interval is intrusive, and not in the clinical interests of the Medicare 

beneficiaries. HIDA maintains that six month intervals are a far more reasonable time fi-ame, and 

should be incorporated in the final version of the report. 


Please feel free to contact myself or Mark Hobratschk at (703)-549-4432 with any question or for 

additional information 


Sincerely, 





Cam C. Bachenheimer 

Executive Director 

Home Care and Long Term Care 


 cc: 	   Mark Hobratschk
         S. Wayne Kay                                        DIG-AS -


 CCB:mh                                                      DIG-01 -




         66 Canal Center Plaza, Suite 520, Alexandria.   VA 223 14- 159 7   �    703-549-4432   . FAX 703-549-6495
                                            NAMES 

                                              National Association for
                                            Medical Equipment Services




May 2,1997                                                    Via Hand Delivery




The Honorable June Gibbs Brown 

Inspector General 

Department of Health and Human Services 

Room 5246 Cohen Building 

330 Independence Avenue, S. W. 

Washington, D. C. 20201 





       Re: 	          Comments on Draft Renort: Pressure Reducing Sunnort Surfaces
                      &+ag-    9s- 00390


Dear Inspector General Brown:

The National Association for Medical Equipment Services (NAMES) submits the following
comments on the Office of Inspector General’s (OIG) draft report, Pressure Reducing Support
Surfaces. The draft report, which NAMES received on April 18,1997, requested comments
within fourteen (14) days.

NAMES is a nonprofit trade association comprised of over 1400 home medical equipment
(HME) services providers in approximately 4,000 sites across the country. NAMES members
furnish a wide variety of equipment, supplies, and services for home use. These items may range
from traditional medical equipment such as walkers, oxygen and hospital beds, to highly
sophisticated items and services such as enteral and parenteral supplies for complete nutrition
support  for individuals who can not digest food normally; apnea monitors, which allow parents
to closely monitor high risk infants’ breathing; and specialized wheelchairs and other
technologically advanced equipment which are custom designed for the needs of rehabilitation
patients. A substantial portion of HME patients are Medicare beneficiaries or Medicaid
recipients.

NAMES has had a sustained commitment to helping eliminate fraud and abuse in the home



 625 Slaters Lane. Suite 200   �    Alexandria,   VA 22314-1171          �    (703) 836-6263 FAX (703) 836-6730
medical equipment (HME) services industry. For example, the NAMES initiative, Operation
Build Trust (OBT), was created in response to requests from state Medicaid programs for
information about the HME services industry. OBT now serves as a vehicle through which
NAMES works with the Medicare and Medicaid programs to identify sources of fraud and abuse
within the HME services industry. NAMES also supports anti-fraud and abuse measures
proposed by HCFA, such as bonding, and it is advancing a legislative plan that includes
accreditation and on site inspections of HME services providers.

NAMES is pleased to have the opportunity to comment on the OIG’s draft report. NAMES
likewise is pleased to note the favorable trends that the OIG cites in the report, including the
following:

                .	     medically unnecessary use of pressure reducing support
                       surfaces has declined;

                .	     fewer beneficiaries report receiving up coded or no
                       equipment;

                .      fewer beneficiaries report problems with duplicate billings;

                .	     almost all beneficiaries report receiving training in the
                       proper use of the equipment from their HME services
                       provider; and

            ;   .	     patient outcomes are favorable when the support surface is
                       used properly.

Your report also notes that Medicare reimbursement for alternating pressure mattresses has been
declining since the beginning of 1996. These outcomes, as you point out, demonstrate the
effectiveness of the new guidelines that the DMERCs implemented in 1996. In light of these
positive trends, NAMES has serious concerns about reestablishing monthly or bi-monthly
certification of the medical necessity for group 2 support surfaces.

As you clearly state in your report, this requirement would be burdensome on the DMERCs and
HME services providers. It is our experience that physicians would find this requirement
burdensome as well. Wound care patients typically are bedridden and have a severely
compromised health status. The healing process may be lengthy and will depend on a number of
variables in addition to the use of a support surface, including the patient’s nutrition, oxidation,
and drug therapy. Consequently, it would be unlikely to see much improvement in these patients’
condition on a monthly or bi-monthly recertification schedule.

Documentation of continuing medical necessity could be accomplished in a less burdensome
manner by requiring that the physician provide to the HME services provider an updated
Statement of Ordering Physician - Group 2 Support Surfaces every six months. This information
would not need to be submitted with a claim, but would be kept on file by the HME services
provider. The DMERCs currently require that HME services providers maintain a Statement of
Ordering Physician on file for beneficiaries who receive group 2 support surfaces. The
requirement to update this form, combined with HCFA’s bonding initiative and NAMES
legislative proposal to require accreditation and on site inspections, would reduce the problems
with group 2 support surfaces cited in your report.

Again, thank you for the opportunity to comment on the draft report. Please feel free to call me
if you have any questions, or if NAMES can be of further assistance to you.



Sincerely yours,




Asela M. Cuervo, Esq.
Director of Regulatory Affairs
